  Office of Inspector General
          Audit Report


    HAZARDOUS LIQUID PIPELINE
      OPERATORS’ INTEGRITY
   MANAGEMENT PROGRAMS NEED
      MORE RIGOROUS PHMSA
           OVERSIGHT
Pipeline and Hazardous Materials Safety Administration

            Report Number: AV-2012-140
             Date Issued: June 18, 2012
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Hazardous Liquid Pipeline Operators’                                 Date:          June 18, 2012
           Integrity Management Programs Need More
           Rigorous PHMSA Oversight
           Pipelines and Hazardous Materials Safety
             Administration
           Report No. AV-2012-140
  From:                                                                                 Reply to
           Jeffrey B. Guzzetti                                                          Attn. of:      JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Pipeline and Hazardous Materials Safety Administrator

           Every day, 175,000 miles of pipelines transport crude oil, refined petroleum
           products, and other hazardous liquids throughout the United States. These
           pipelines can be vulnerable to accidents caused by corrosion, pipe defects, and
           other factors. Between 2005 and 2010, 356 significant accidents that were
           IM-detectable 1 occurred, resulting in 6 deaths, 11 injuries, and $852 million in
           clean-up costs. This includes an Enbridge spill in Marshall, MI, in July 2010 that
           resulted in $550 million in damages. 2

           In 2001, the Pipeline and Hazardous Materials Safety Administration (PHMSA)
           issued the Hazardous Liquid Integrity Management (IM) rule to require pipeline
           operators to maintain IM programs. Such programs include plans, processes, and
           procedures aimed at reducing the likelihood and severity of accidents in High
           Consequence Areas (HCAs). 3



           1
               PHMSA defines “IM-detectable” as significant accidents that are caused by internal corrosion, pipe seam welds, and
               other factors that are potentially detectable by integrity assessments under the hazardous liquid IM rule. The
               definition also includes accidents with unknown causes.
           2
               In May 2012, Enbridge filed a report with the Securities and Exchange Commission indicating that its previous
               Marshall spill clean-up estimate may increase by 40 percent for a total of about $765 million. The accident is
               currently under investigation by the National Transportation Safety Board.
           3
               HCAs include unusually sensitive areas (defined as drinking water or ecological resource areas), urbanized and other
               populated places, and commercially navigable waterways. Approximately 77,000 miles (44 percent) of the Nation’s
               pipelines are located in HCAs.
                                                                                  2


Given the significant public and environmental impact of pipeline accidents, we
initiated this audit to assess the effectiveness of PHMSA’s oversight of hazardous
liquid pipeline operators’ IM programs. Specifically, we assessed PHMSA’s
(1) inspection and enforcement activities, (2) requirements for non-line pipe
facilities (e.g., valves, pump and meter stations, and storage tanks), and (3) data
management and analysis capabilities.

We conducted the audit in accordance with generally accepted Government
auditing standards prescribed by the Comptroller General of the United States.
Exhibit A details our audit scope and methodology. Exhibit B lists the
organizations we visited or contacted.

RESULTS IN BRIEF
PHMSA’s inspection and enforcement program has accomplished much, but still
faces multiple challenges that impact the Agency’s oversight of operators’ IM
programs. Since the passing of the IM rule, PHMSA has inspected all pipeline
operators at least once and operators have identified and repaired more than
35,000 defects over the last 10 years. However, PHMSA has recently accumulated
a backlog of IM inspections, caused in part by the Agency redirecting resources to
fulfill other inspection requirements. To address this issue, PHMSA plans to
eliminate its 5-year periodic IM inspection goal and transition to an integrated
risk-based inspection process by 2013. While this decision may allow PHMSA to
conduct inspections more effectively, its success depends on the Agency’s ability
to implement other ongoing inspection planning initiatives. In addition, PHMSA
does not perform sufficient onsite visits to hazardous liquid pipelines and
facilities—whether in the form of field inspections or accident investigations—
thereby missing important opportunities to identify and correct weaknesses in
operator IM programs. Finally, the declining number of IM inspections may
impact PHMSA’s ability to enforce program requirements.

PHMSA’s oversight of non-line pipe facilities (which include valves, pump and
meter stations, and storage tanks) is limited by less rigorous IM requirements.
Even though facilities account for more than half of all hazardous liquid accidents,
PHMSA does not require regular and consistent operator assessments of these
facilities. In contrast, IM regulations require operators to assess their line pipe
once every 5 years. PHMSA’s requirements for facilities are less rigorous, because
at the time the Agency drafted its IM requirements in 2000, the existing
assessment technologies were of little benefit when inspecting such facilities
(e.g., the assessment tools were not compatible with non-line pipe facilities).
Instead, operators used other preventative and mitigative procedures, such as
visual inspections and containment barriers. However, despite recent technological
advances, PHMSA has not updated its IM requirements for non-line pipe facilities.
                                                                                                                      3


PHMSA has not resolved long-standing data management deficiencies or
established meaningful analysis capabilities to improve its oversight. These
deficiencies were previously identified by both the Government Accountability
Office (GAO) and OIG in 2002 and 2006, respectively. 4 While PHMSA has
established a corrective action plan, 5 the plan does not go far enough. First,
shortcomings in PHMSA’s data management and quality limit the usefulness of
operator accident and annual reports in identifying pipeline safety risks. For
example, PHMSA’s plan does not include a data quality check to prevent
operators from erroneously submitting the same annual report data from one year
to the next. Second, PHMSA does not have a program for systematically analyzing
data to identify hazardous liquid pipeline safety and accident trends. While
PHMSA’s corrective action plan does cite the need for establishing such a
program (i.e., an “agenda for regular data analysis”), the Agency has yet to
complete this effort. Third, the Agency lacks the capability to identify high-risk
pipelines by linking accidents, oversight actions, and pipeline characteristics to
their geographic location. While PHMSA has begun developing such a system, it
will take years and additional resources to implement. Finally, PHMSA has not
established performance measures for assessing the IM program's effectiveness.
Instead, the Agency focuses on overall pipeline safety measures (e.g., number of
fatalities and injuries) that provide no feedback on the IM program’s impact. As a
result, PHMSA is unable to fully gauge whether IM is having a positive effect on
safety.

We are making several recommendations to improve PHMSA’s oversight of the
IM programs for hazardous liquid pipeline operators.

BACKGROUND
In December 2000, PHSMA issued the hazardous liquid IM rule, 6 which requires
pipeline operators to develop programs to assess, evaluate, and mitigate risks to
their pipelines in or potentially affecting HCAs. Operator IM programs must
include such elements as identifying pipelines affecting HCAs, conducting
baseline and periodic re-assessments of those pipelines, identifying and repairing
integrity threats, and measuring program effectiveness. Since the IM rule took
effect, operators with pipelines that could affect HCAs have inspected their
pipelines using methods such as in-line inspection (ILI) tools 7 (i.e., “smart pigs”).

4
    GAO Report No. GAO-02-785, “PIPELINE SAFETY AND SECURITY: Improved Workforce Planning and
    Communication Needed,” August 2002; and OIG Report No. AV-2006-071, “Integrity Threats To Hazardous Liquid
    Pipelines,” September 18, 2006. OIG reports are available on our Web site at http://www.oig.dot.gov/.
5
    PHMSA, Office of Pipeline Safety "Data Quality and Analysis Improvement Plan," Version 2, November 2009.
6
    49 CFR 195.452 (2001), “Pipeline Integrity Management in High Consequence Areas,” went into effect on March
    31, 2001. Although initially pertaining to large operators with 500 or more miles of hazardous liquid pipelines, the
    rule was expanded to include small operators with less than 500 miles of pipeline starting February 15, 2002.
7
    In-line inspection tools examine the condition of a pipe-line and detect pipeline anomalies due to corrosion or pipe
    defects. They are inserted into the pipeline and are pushed along by the flowing product.
                                                                                                                 4


Moreover, operators have identified and repaired more than 35,000 pipeline
defects that had the potential to become leaks in HCAs.

PHMSA also initiated an inspection program in 2002 to oversee hazardous liquid
pipeline operators’ IM programs. PHMSA and its 15 State partners 8 follow
inspection protocols designed to examine the development and implementation of
an operator’s IM program. However, the Agency’s IM inspection program
represents only one of many regulatory oversight responsibilities for both Federal
and State inspectors who must also perform inspections of pipeline construction,
operators’ programs (e.g., operations and maintenance and operator
qualifications), and several other types of specialized inspections.

In August 2002, the GAO issued a report that examined PHMSA’s approach to IM
and found that PHMSA had experienced a number of problems with data
completeness and accuracy. 9 GAO stated that the Agency’s accident reporting
form contained too few causal categories, so that about 25 percent were
“unknown.” The Agency implemented several initiatives to enhance data quality,
including increasing the number of causal categories on the accident reporting
form. In September 2006, we issued a report on integrity threats to hazardous
liquid pipelines. 10 We found that operator annual reports contained inaccurate
information on the number of “integrity threats” (i.e., defects), which hampered
PHMSA’s ability to analyze threat data, identify important trends, and focus
limited inspection resources on areas of greatest concern. PHMSA addressed the
problem by issuing new reporting guidelines to pipeline operators and directed IM
inspectors to verify operator threat data.

INSPECTION AND ENFORCEMENT CHALLENGES LIMIT
PHMSA’S ABILITY TO OVERSEE OPERATOR IM PROGRAMS
PHMSA’s inspection and enforcement program faces multiple challenges that
impact the Agency’s oversight of operators’ IM programs. Specifically, PHMSA
has not met its IM inspection goals and has accumulated a backlog of IM
inspections. To address this, PHMSA plans to transition to an integrated risk-
based inspection process by 2013. However, a number of ongoing issues with the
Agency’s databases and risk analysis models may constrain this new inspection
approach. In addition, PHMSA is missing potential opportunities to identify IM
program weaknesses through field visits. Finally, with fewer IM inspections,


8
     PHMSA has delegated inspection and enforcement authority to 15 State partners. These partners provide
     approximately 75 percent of the total inspector workforce (100 Federal and about 300 State). We will conduct a
     review of PHMSA’s oversight of State partners in another audit beginning in 2012.
9
     GAO Report No. GAO-02-785, “PIPELINE SAFETY AND SECURITY: Improved Workforce Planning and
     Communication Needed,” August 2002.
10
     OIG Report No. AV-2006-071, “Integrity Threats To Hazardous Liquid Pipelines,” September 18, 2006.
                                                                                                                    5


PHMSA’s ability to enforce operator IM compliance with Federal regulations may
be impacted.

PHMSA Has Not Met Its IM Inspection Program Goals
PHMSA has not met its IM inspection goals and faces a growing inspection
backlog of operators’ IM programs. In 2002, the Agency began inspecting
operator IM programs with a goal of inspecting all operators at least once every
5 years. Since then, PHMSA has inspected all operator IM programs at least once
and large operators two or more times. However, our analysis of 213 11 operators
under Federal jurisdiction found that 47 (22 percent) did not receive an IM
inspection within the Agency’s stated goal of every 5 years. Recognizing the
growing backlog, PHMSA scheduled 16 of these operators for inspection in 2011,
which left 31 operators, plus another 18 (that are coming due), to be inspected in
2012. However, it is unlikely PHMSA can cover 49 operators in 2012 given that
the Agency averages only around 22 IM inspections per year.

PHMSA’s backlog of operators                            Figure 1. Competition for PHMSA Inspection
requiring IM inspections is due                                        Resources
in part to a redirection of
program resources towards
other inspection priorities.
IM inspections represent only
one pipeline regulatory area that
PHMSA inspects in any given
year. As illustrated by figure 1,
Agency      staff     resources 12
conducting     integrated    and
construction inspections have
recently increased, while staff
resources dedicated to IM
inspections have decreased.                        Source: OIG analysis of PHMSA data

According to PHMSA, this
decline was partially attributable to an increase in new construction inspections
and the introduction of integrated inspections over this period. Based on these
trends and the growing backlog of IM inspections, PHMSA officials
acknowledged that they will not be able to meet their 5-year periodic
IM inspection goal—even with current efforts to increase their inspector staffing
levels. For example, in its fiscal year (FY) 2012 budget, PHMSA requested an

11
     In addition to the 213 operators under Federal jurisdiction, there were approximately 160 operators overseen by
     PHMSA’s State partners in 2009.
12
     PHMSA tracks its resource usage by monitoring the total number of days spent on all inspection types but does not
     separate inspection days into hazardous liquid and gas pipelines.
                                                                                                                     6


additional 10 inspector positions. Although Congress has stated that it will grant
that request, the Agency must first fill all of its 135 currently authorized positions
(more than 10 are vacant) and complete a manpower study to support any
additional inspection and enforcement resource needs. 13

Data System and Risk Analysis Issues Constrain PHMSA’s New
Inspection Approach
Given the growing inspection backlog and the Agency’s inability to meet the
5-year IM inspection goal, PHMSA plans to restructure its entire inspection
program and transition to risk-based integrated inspections. Such inspections
incorporate elements of multiple PHMSA inspection types, including IM,
operations and maintenance, and operator qualifications. This transition may allow
PHMSA to conduct its oversight more efficiently and effectively. However, its
success will depend on fully implementing several ongoing initiatives to address
data system and risk analysis issues that currently constrain PHMSA’s inspection
planning capabilities. For example:

• Tracking Pipeline Changes. PHMSA’s inspection planning and coverage have
  been affected by the Agency’s inability to effectively track changes in
  operators’ pipeline assets. Occasionally, an operator may increase or decrease
  the number of pipelines that it operates (e.g., through acquisitions or
  divestitures), requiring subsequent changes to PHMSA’s inspection plans to
  ensure that all pipelines and facilities are adequately covered. However,
  PHMSA has not required operators to provide notice of these asset changes,
  even though Agency officials told us that such information is necessary for
  effective inspection planning. Because PHMSA was unable to track operator
  infrastructure changes, inspection planners were not always aware of
  modifications to an operator’s pipeline assets or associated IM safety
  programs. For example, during a 2006 IM inspection of a large operator,
  PHMSA did not inspect a subsidiary because inspectors were unaware that the
  subsidiary was operating under a separate IM program (therefore requiring its
  own inspection).

       To improve pipeline asset tracking, PHMSA published a final rule in
       November 2010 requiring operators to notify the Agency of major changes,
       such as when they acquire or sell portions of their pipeline systems. 14
       Beginning in 2012, operators will be required to input these changes to a newly
       developed National Pipeline Safety Registry and will have until June 2012 to

13
     P.L. 112–90, the Pipeline Safety, Regulatory Certainty, and Job Creation Act of 2011. In addition, PHMSA has
     requested another 120 inspection and enforcement positions as part of its fiscal year 2013 budget request.
14
     At the time of our review, the National Registry forms that will be used by the operators to notify PHMSA of their
     mergers and acquisitions were under PHMSA’s review and still needed the Office of Management and Budget’s
     approval.
                                                                                                                  7


       validate their pipeline information and associated IM program coverage. While
       PHMSA’s development of the National Pipeline Safety Registry is a positive
       step toward tracking pipeline infrastructure changes, data will not be available
       to inspection planners until July 2012 at the earliest. Follow through will be
       needed until the system is tested and fully operational.

• Database Accessibility. PHMSA’s            Figure 2. Database Interconnectivity
  ability to efficiently plan inspections
  is also hindered by database
  constraints.     PHMSA        currently
  maintains         inspection        and
  enforcement data and results in
  multiple database systems: the IM
  Database, the Inspection Assistant,
  and the Safety Monitoring and
  Reporting        Tool      (SMART). 15
  However, these systems have limited
  or no interface between them, which
  requires inspectors to manually
  extract and analyze inspection results
  separately (see figure 2). To partially     Source: OIG
  address these data connectivity
  issues, PHMSA developed the Pipeline Data Mart, a Web-based portal that
  inspectors use to access and analyze pipeline data from multiple data sources.
  In particular, inspectors use the Pipeline Data Mart to create pipeline operator
  profiles, a key component in planning integrated inspections.

       Although the Agency has decided to use the Inspection Assistant to record all
       future inspection results, they have yet to provide needed connectivity between
       this system and the Pipeline Data Mart. 16 Once the Agency provides this
       connectivity (currently planned for mid-2012), inspectors will be able to more
       efficiently plan integrated inspections. Additionally, PHMSA has initiated but
       not completed efforts to improve integrated inspection documentation
       requirements and processes. For example, PHMSA is developing standardized
       issue categories and severity indicators 17 so that inspectors can report
       inspection results consistently and improve overall data analysis capabilities.


15
     The IM Database contains IM inspection results, to include completed protocol forms, summary reports, and
     enforcement documentation. The Inspection Assistant contains integrated inspection results. SMART contains
     inspection summaries, operator information, enforcement history, and enforcement status.
16
     In contrast, PHMSA does not plan on linking the IM database to the Pipeline Data Mart. Instead, inspectors will
     record all future results in the Inspection Assistant.
17
     The development of these indicators was initiated as part of PHMSA’s Data Quality and Analysis Improvement
     Plan, dated November 2010.
                                                                                                                        8


• Identifying Risk Factors. Effectively identifying key pipeline risk areas is
  another important factor in planning inspections. In transitioning to integrated
  inspections, PHMSA will rely on its Risk Ranking Index Model (RRIM) 18 to
  identify those pipeline systems in greatest need of inspection. According to
  PHMSA officials, RRIM currently includes such risk factors as pipeline age
  and construction material. They also point to more recent improvements to
  RRIM, including linking enforcement actions, population numbers, and
  environmental factors to specific pipeline units. Nevertheless, several other key
  IM-related risk factors have not been included, such as changes in senior
  operator personnel or how often operators conduct in-line inspections. This
  information would further enhance the Agency’s ability to consider IM risk
  factors when planning integrated inspections.

PHMSA’s schedule to implement these data management and risk analysis
improvements is ambitious and will challenge the Agency’s ability to fully
transition to an integrated inspection approach by 2013. Until PHMSA overcomes
this challenge and successfully completes the transition, the Agency may not be
able to ensure sufficient and consistent oversight of all IM programs.

PHMSA Is Missing Potential Opportunities To Identify IM Program
Weaknesses Through Field Visits
PHMSA’s overall IM inspection approach focuses on operators’ IM program
documentation rather than onsite observations and accident investigations.
PHMSA completes the majority of its inspections by reviewing operators’
policies, procedures, and other IM-related records, and rarely visits operators in
the field to further test and verify IM program implementation. Between 2006 and
2010, PHMSA conducted 88 IM field tests 19 involving only 41 of the
213 hazardous liquid pipeline operators (19 percent) under Federal jurisdiction.
According to senior PHMSA officials, the Agency has intentionally focused its
IM inspections on reviewing documentation (e.g., HCA identification maps,
results from ILI tools, and repair records) at operators’ headquarters to ensure
operator IM programs contain all required elements. PHMSA officials stated that
this approach makes the best use of its limited resources.

However, PHMSA misses opportunities to identify IM program weaknesses that
may not be apparent through documentation review. For example:

• In an April 2006 field test, PHMSA found that an operator failed to properly
  classify a portion of its 26-inch crude oil pipeline as residing in an HCA (even
  though this pipeline went over a lake used to supply drinking water). In

18
     PHMSA’s first deployment of a risk ranking tool to identify pipeline units for inspection was in 1988.
19
     IM Field tests are onsite observations of an operator’s IM-related activities, such as launching and receiving of ILI
     tools or making pipeline repairs.
                                                                                                                          9


       contrast, during the previous documentation-based IM inspection in June 2003,
       PHMSA noted numerous deficiencies with the operator’s process for
       identifying HCAs but cited no specific lines as being misclassified.

• In a February 2009 field test, PHMSA found that an operator lacked
  documentation to demonstrate a contract employee was qualified to analyze
  and recommend repairs to pipeline defects during a dig inspection. In contrast,
  during a prior documentation-based IM inspection in May/June 2008, PHMSA
  found no issues related to the operator’s process for repairing pipeline defects.

Agency officials stated that once PHMSA transitions to integrated inspections,
inspectors will be able to use PHMSA’s new “IM Field Implementation
Directive,” 20 which will incorporate field visits with reviews of operator
documentation to test IM program implementation. However, until the Agency
completes these actions, it remains unknown whether these new inspections will
lead to more field testing of operator IM programs.

PHMSA also conducts only a limited number of onsite accident investigations,
which can provide another important opportunity for identifying weaknesses in
operators’ IM programs. Of the 31 significant accidents in our audit sample, 21
PHMSA or its State partners conducted onsite accident investigations for only 12.
Overall, PHMSA conducted such investigations on 39 percent (195 of 500) 22 of all
significant accidents between 2005 and 2010. According to Agency policy,23
PHMSA typically conducts onsite accident investigations only when one or more
specific conditions (e.g., fatalities or multiple serious injuries, major
environmental or property damage) are present. Otherwise, PHMSA relies on the
operator to determine an accident’s cause and make any necessary program
improvements to prevent a reoccurrence.

However, as past accidents have shown, conducting more accident investigations
can help PHMSA prevent future accidents and identify weaknesses in operators’
IM programs. For example:

• Following an April 2009 spill in Toledo, OH, PHMSA’s accident investigation
  found that the pipeline section was improperly designed when installed. As a
  result, the line was susceptible to cracking due to fluctuating temperatures. A
  year earlier, an adjacent line at this same location experienced an accident due

20
     The IM Field Implementation Directive will be used to test an operator’s implementation of their IM program.
     Specifically the inspector will review data integration, HCA identification, threat assessments, dig site verification,
     and implementation of preventive and mitigative measures.
21
     In selecting this sample, we used data from 2005 through 2010 for hazardous liquid accidents identified as occurring
     within or could affect HCAs.
22
     Between 2005 and 2010, there were 692 significant accidents; however, 192 of these accidents occurred in States
     that would have primary responsibility for conducting the onsite accident investigation.
23
     PHMSA, “Failure Investigation Policy,” January 2011.
                                                                                                                   10


       to this same condition. However, it was not until after the second accident that
       PHMSA conducted an onsite investigation. Had the Agency investigated the
       first accident, it may have identified the risk to the adjacent line.

• Following a June 2010 spill near Salt Lake City, UT, in which 800 barrels of
  crude oil were leaked into a creek. PHMSA’s investigation identified a number
  of IM and other program-related issues (e.g., the operator failed to install
  grounding devices to prevent electrical arcing) that may have contributed to the
  cause of the accident. 24 As a result, PHMSA issued an enforcement action
  against this operator, demonstrating the importance of accident investigations.

PHMSA officials believe their current policy and criteria for when to conduct
accident investigations is sufficient, considering the cost of such site visits
weighed against other resource needs and priorities. However, as we point out, the
criteria has resulted in PHMSA investigating less than half of all significant
accidents, thereby limiting the Agency’s opportunities to identify and mitigate
weaknesses in operator IM programs.

Declining IM Inspections May Impact PHMSA’s Ability To Enforce
Program Requirements
In recent years, the number of        Figure 3. Hazardous Liquid Integrity
IM inspections has declined,         Management Inspections and Related
due in part to the Agency’s                   Enforcement Cases
shift in priorities to other
inspection      types.    Yet,
inspections are PHMSA’s
principal means of identifying
program      areas     needing
improvement. As such, they
are also the Agency’s
principal means of ensuring
compliance        with     IM
requirements through various
enforcement actions, such as
Warning Letters, Notice of Source: OIG analysis of PHMSA data
Potential Violations, and Civil
Penalties. As figure 3 shows, the number of IM inspections performed declined
significantly between 2005 and 2010—from 30 inspections to 12. Therefore,
PHMSA’s opportunity to both identify and correct IM program deficiencies may
have been limited. Additionally, PHSMA’s transition to integrated inspections has

24
     PHMSA determined that the probable cause of the accident was an electrical arc from a nearby transfer station that
     created a hole in the pipeline.
                                                                                                                      11


the potential to further reduce the number of IM-related inspections and
corresponding enforcement actions unless this program is identified as a risk area.

LESS STRINGENT IM REQUIREMENTS LIMIT PHMSA’S
OVERSIGHT OF NON-LINE PIPE FACILITIES
Although over half of all hazardous       Figure 4. Piping at Facility Pump Station
liquid accidents occur at non-line
pipe facilities 25 (see figure 4),
PHMSA’s IM requirements for
such facilities are insufficient. In
contrast to operator line pipes, the
Agency does not require that
operators conduct baseline and
recurring assessments of these
facilities. When PHMSA drafted
IM requirements in 2000, the
existing assessment technologies
provided     little   benefit     for
inspecting non-line pipe facilities.    Source: Used by permission of the American Petroleum
Over the last decade, however,          Institute
various      methodologies       and
technologies have been developed that could be used to assess these facilities.
Despite these advances, PHMSA has not yet updated its IM requirements to
include regular and consistent operator assessments of non-line pipe facilities.

Non-Line Pipe Facilities Comprise a Large Share of All Hazardous
Liquid Accidents but Face Fewer IM Requirements
In its 2009 advisory on facilities piping, 26 the American Petroleum Institute (API)
reported that over half of all accidents (both significant and non-significant)
occurred at facilities. Likewise, PHMSA’s 2010 operator data indicated that
facilities comprised nearly 63 percent of all hazardous liquid accidents, of which
34 percent were considered significant. This correlates to our sample of significant
accidents, in which 11 of the 31 accidents that we reviewed occurred at facilities.
These accidents were caused by various factors, including internal corrosion,
material weld failure, and improper operations. Moreover, while the overall
number of hazardous liquid pipeline accidents has declined over the last 10 years,
the rate of decline for facilities has been far less. 27

25
     Non-line pipe facilities include valves, pumping units, metering and delivery stations and fabricated assemblies, and
     breakout tanks.
26
     API, PPTS ADVISORY 2009-5, “New Findings on Releases from Facilities Piping,” October 2009.
27
     In 2009, API reported that the number of non-line pipe facility releases since 2001 (within and outside HCAs,
     significant and non-significant), declined 21 percent as compared to a decrease in line pipe releases of 62 percent.
                                                                                                                     12


Non-line pipe facility releases are generally small and contained within operator
property; however, the consequences can be significant. For example, one 2008
accident near San Antonio, TX, released approximately 530 barrels of diesel into
the ground, resulting in more than $750,000 in product loss, accident response,
and environmental remediation costs. 28

Despite the higher number of accidents at non-line pipe facilities, PHMSA’s
IM inspection requirements are less stringent for facilities than for line pipe. For
line pipe, PHMSA’s hazardous liquid IM rule requires that operators conduct
baseline assessments and periodic re-assessments 29 (every 5 years) of their
pipeline systems that potentially could affect HCAs in the event of an accident.
Most operators perform these assessments using ILI tools, hydrostatic testing, or
external corrosion inspections.

Moreover, PHMSA’s hazardous liquid IM rule does not require baseline and
recurring assessments of non-line pipe facilities. PHMSA exempted operators
from performing these non-line assessments in part because the existing
assessment technologies were of little benefit when examining such facilities. For
example, non-line pipe facilities often include piping and equipment that do not
accommodate ILI tools and are poor candidates for hydrostatic testing. 30 During
the IM rulemaking, PHMSA agreed with an industry suggestion to limit the rule to
line pipe and address integrity issues for other pipeline facilities in a separate
rulemaking. However, the Agency has not yet developed a separate rule for
facilities. As a result of PHMSA’s lack of assessment requirements for non-line
pipe facilities, operators may not have sufficient integrity data to determine
accident risks and to identify needed repairs.

In contrast, API has issued supplementary guidance to the pipeline industry on
ways to strengthen operator oversight of facilities. In June 2011, API
recommended that operators complete a baseline evaluation of piping in terminal
facilities 31 within 5 years, which correlates with current IM requirements for line
pipe. 32 In contrast, several operators told us that their normal practice is to assess
their facilities every 10 years. Yet, since API’s guidance consists only of voluntary
best practices, not binding requirements, there is no guarantee that the industry
will consistently implement API’s recommendation.




28
     The leak was caused by a valve gasket failure on a non-line pipe bolted flange, and the apparent cause was poor
     construction procedures when the value was placed in service in 2006.
29
     An IM assessment consists of the actions that an operator performs to determine the condition of the pipe.
30
     Hydrostatic testing increases the liklihood of corrosion by introducing water into the facility.
31
     Terminal facilities store and distribute refined hydrocarbon products such as gasoline, heating oil, and/or aviation
     fuel.
32
     API RP 2611, “Terminal Piping Inspection - Inspection of In-Service Terminal Piping Systems,” June 2011.
                                                                                                        13


IM Requirements for Non-Line Pipe Facilities Do Not Incorporate
Technology Advancements
The development of methodologies and technologies to assess non-line pipe
facilities has lagged behind that of line pipe. This is due in part to the fact that the
majority of PHMSA’s pipeline accident prevention research has focused on
improving ILI assessments and leak detection systems, which are not easily
applied to facilities.

However, over the last decade, methodologies and technologies have been
developed that could be used to assess facilities much like smart pigs assess line
pipe. One device, which is smaller than conventional ILI tools, uses acoustical
sensors to identify small leaks. Another device uses ultrasonic guided waves to
inspect facility piping for corrosion and pipeline dents. 33 Despite these
advancements, PHMSA has not updated the IM regulation to require operators to
assess non-line pipe facilities.

PHMSA FACES SIGNIFICANT DATA PROBLEMS THAT HINDER
ITS OVERSIGHT AND ANALYSIS CAPABILITIES
PHMSA’s ability to identify hazardous liquid pipeline safety risks and oversee the
IM program is limited by shortcomings in the management, quality, and analysis
of the Agency’s available data. Although PHMSA is aware of these shortcomings
and has initiated some corrective measures, it is too soon to determine whether
those actions will result in more reliable data. In addition, PHMSA has not used
data analysis opportunities to improve its oversight of operator IM programs, nor
developed useful performance measures to assess the overall program’s
effectiveness in improving the safety of hazardous liquid pipelines.

Shortcomings in PHMSA Data Management and Quality Limit the
Usefulness of Accident and Annual Report Data
PHMSA collects and maintains important data from its inspections and
enforcement actions, as well as from accident and annual reports filed by pipeline
operators, to facilitate its oversight of hazardous liquid pipelines. However, we
identified several problems with the data provided through these reports. PHMSA
has taken a number of steps to address these problems, but these steps will take
several years to implement. Examples of data control and quality issues include
the following:

• Data Management. PHMSA’s electronic accident report database contained
  records that had not been adequately managed. PHMSA uses this database to

33
     PHMSA has already approved this testing method for use by some operators on line pipes under the “Other
     Technology” provision of the IM rule.
                                                                                                                     14


       track accidents and their causes for safety oversight. However, 9 of the
       51 (18 percent) most severe hazardous liquid pipeline accidents 34 in the
       database showed “Unknown” as the accident cause. When asked why this
       causal information was not more definitive, PHMSA officials were only able to
       provide specific causes for six of the nine accidents from other sources outside
       its accident report database. PHMSA officials were not able to explain why the
       causal data for these six accidents were not already in the database.

       Another data management example involves PHMSA’s handling of operator
       information on break-out tanks. Prior to 2010, PHMSA allowed operators to
       list their tank inventory numbers in either the National Pipeline Mapping
       System or in operator annual reports. However, PHMSA did not have a process
       to confirm whether operators were entering data into either system and thus
       never reconciled the two inventories. Until it changed reporting requirements
       in 2010 (requiring operators to report their break-out tanks inventories to just
       one system), the Agency was unable to determine what tanks actually existed
       and their size. Despite this fix, PHMSA will have difficulty using pre-2010
       break-out tank data and will need several years of additional information
       before any trend analyses can be performed.

• Data Quality. PHMSA’s data quality control procedures failed to identify a
  number of significant errors. In more than 100 cases (i.e., 19 percent of
  hazardous liquid operators), operator annual reports showed identical shipment
  volumes from one year to the next, indicating an inaccuracy, since it is highly
  unlikely that shipment volumes would be exactly the same from year to year.
  In another example, over a 5-year period, one operator under-reported 6 trillion
  barrel-miles of transported commodity, which represents 22 percent of all
  hazardous liquid pipeline shipments. These data quality errors occurred
  because PHMSA lacks a method to detect duplicate reporting of annual
  shipment volume figures from one year to the next. Further, these two
  examples raise questions about the adequacy of PHMSA’s data quality
  procedures as well as the accuracy of the other statistics (e.g., pipeline mileage,
  age, inspections, and repairs) included in operator annual reports.

PHMSA has identified some of the above problems as well as other deficiencies in
its information systems, data management and quality control, and analysis
through multiple studies it conducted. In the latest of these studies, the November
2010 Data Quality and Analysis Improvement Plan, PHMSA established a list of
action items. 35 However, the plan does not resolve all of PHMSA’s IM-related
34
     The most severe are significant accidents with IM-detectable causes, and either a fatality, injury requiring
     hospitalization, 3,000 or more barrels of liquid released, or $5 million or more in property damage.
35
     Before issuing this plan, PHMSA addressed other data deficiencies by updating its 2010 annual and accident
     reporting requirements. However, the Agency will need several years of data collection to establish trends for newly
     required data elements and will have difficulty developing trend analyses that span the pre- and post-2010 changes.
                                                                                                                  15


data problems, nor has the Agency prepared required status reports for tracking the
plan’s progress. Moreover, PHMSA officials state that it will take several years to
fully implement the plan due to staffing and funding issues.

PHMSA Has Not Taken Advantage of Data Analysis Opportunities To
Identify At-Risk Pipelines and Improve Performance and Safety
PHMSA is not taking advantage of immediate and long-term opportunities to use
data to improve the IM program and identify safety risks. For example, PHMSA
lacks a program for conducting systematic analyses of readily available pipeline
accident and annual report data. 36 These analyses would enable the Agency to
better assess current and emerging safety risks, identify industry trends, and better
allocate limited inspection resources. PHMSA has conducted only four national-
level studies that evaluated safety trends and conditions between 2007 and 2011,
and those studies were not part of an overarching data analysis program. The
Agency recognizes the need for such near-term efforts and, according to its Data
Quality and Analysis Improvement Plan, PHMSA intends to develop and
implement an “analytical agenda” that defines what analyses are needed to make
key management decisions affecting pipeline safety. 37

In addition, PHMSA has a longer-term data analysis opportunity to improve its
identification of at-risk pipelines. Currently, PHMSA has broken down large
pipeline systems into smaller geographic units and can assess their risk based on
the operational performance of the units (e.g. number of accidents, inspections,
and enforcements). However, PHMSA’s analyses do not consider the pipeline’s
physical characteristics (such as size, age, or material), because PHMSA does not
collect data on or track these characteristics by where the pipeline is
geographically located. Linking these physical attributes with accident, inspection,
and enforcement information would create a pipeline-based information system
that would enable PHMSA to monitor the safety of specific pipelines and multiple
pipelines of similar characteristics over their lifetime.

PHMSA also recognizes the need to develop a pipeline-based information system
and has taken initial steps that could lead to such a system. A more robust
capability for risk assessments such as this will be especially crucial as PHMSA
moves towards its integrated inspections model and limits its IM inspections to
areas that are most at-risk. However, full implementation is still years away, as
PHMSA will need to develop a data collection regulation and computer software
to process the data. Moreover, the regulation must receive approval from the
Office of Management and Budget and undergo the DOT rulemaking process.
36
     Accident reports, which are required for any spill of five or more gallons of hazardous liquid, include such
     information as location, cause, cost of damages, and whether the spill occurred in or could affect an HCA. Annual
     reports include information such as miles of pipeline (with miles affecting HCAs), diameter, material and age of
     pipeline, miles inspected, and anomalies detected and repaired.
37
     PHMSA is currently developing the analytical agenda and anticipates completing it in 2012.
                                                                                           16


PHMSA Lacks Performance Measures To Assess the Impact of the
IM Program
PHMSA lacks specific
                                   Figure 5. Hazardous Liquid Pipeline Fatalities and
performance       measures
                                                  Injuries, 2002–2010
for       tracking        the
IM program’s         overall
effectiveness,          even
though the program has
existed for more than
10 years. GAO 38 (as well
as PHMSA) has cited a
need for establishing
specific measures to
evaluate the performance
and       oversight        of
PHMSA’s IM program.              Source: PHMSA
And yet, PHMSA relies
only on general pipeline
safety statistics (e.g., total number of accidents and fatalities) that are not targeted
towards evaluating the IM program. For example, as figure 5 demonstrates, overall
fatalities and injuries due to hazardous liquid accidents from all causes are very
low, with recent trends showing a decline (especially since 2004). However, these
statistics provide no specific picture of the impact of the IM program. As a result,
PHMSA does not know whether or to what extent the IM program has improved
pipeline safety.

In contrast, we analyzed
                                      Figure 6. IM-Detectable, Significant Accidents on
PHMSA’s accident data
                                                Line Pipe in HCAs, 2002–2010
through the lens of the
IM        program       by
identifying accidents that
were caused by factors
that could have been
detected through the
IM program, such as
corrosion,        pipeline
failure, and faulty welds.
As figure 6 illustrates,
significant IM-detectable
line pipe accidents in             Source: OIG analysis of PHMSA data

38
     GAO Report No. GAO-02-785, “PIPELINE SAFETY AND SECURITY: Improved Workforce Planning and
     Communication Needed,” August 2002.
                                                                                  17


HCAs have been fairly constant, ranging from a low of 12 to a high of 22 between
2002 and 2010. The lack of any measurable reduction in the number of IM-
detectable significant accidents raises questions about the overall effectiveness of
the IM program.

As our analysis of IM-detectable accidents demonstrates, PHMSA’s current
method of assessing program performance—only reviewing overarching pipeline
safety statistics—does not address the effectiveness of the IM program. Only more
detailed, program-specific measures can help answer these questions. Moreover,
without such measures, PHMSA is unable to fully determine specific areas in need
of improvement and set performance targets accordingly.

CONCLUSION
PHMSA’s IM program plays a significant role in its efforts to ensure the safety of
the Nation’s hazardous liquid pipelines and facilities. And yet, while the program
has led to the identification and repair of thousands of pipeline defects, it has not
resulted in a noticeable reduction in significant accidents in HCAs. To better
address its competing priorities, PHMSA has many initiatives underway to
transform its current IM program, including its decision to transition to a risk-
based integrated inspection approach and increase inspector staffing levels.
However, the Agency is still implementing these initiatives, and their impact on
PHMSA’s ability to fulfill IM program requirements remains unknown. Further
steps are needed to strengthen PHMSA’s program management and oversight to
ensure that operators are adequately identifying and mitigating the risks of IM-
detectable hazardous liquid spills. Moreover, without effective performance
measures, PHMSA will remain unable to fully measure the benefits of its various
program initiatives, the true impact of the overall IM program, and the Agency’s
role in reducing the number, rate, and impact of serious pipeline accidents.

RECOMMENDATIONS
To further improve PHMSA’s oversight of operators’ IM programs, we
recommend that the Administrator:

1. Categorize IM requirements as a high priority within the Agency’s integrated
   inspection and enforcement program.

2. Establish target dates for resolving remaining data system and risk analysis
   issues affecting PHMSA’s inspection program.

3. Implement a pilot program to determine whether the IM Field Implementation
   Directive provides sufficient onsite field testing of operator’s IM program
   implementation.
                                                                               18


4. Expand accident investigation criteria to conduct more Agency onsite reviews
   of significant accidents potentially involving IM-detectable causes.

5. Update IM requirements to mandate baseline and recurring assessments for
   non-line pipe facilities, given the availability of new assessment technologies
   and methodologies.

6. Establish additional quality assurance procedures to verify the accuracy of
   operator annual reports and accident data.

7. Develop and implement a program of systematic analyses to better assess
   pipeline risks, identify safety trends, and focus oversight activities.

8. Create a database of pipeline physical characteristics, accidents, and
   inspections—including geographic location—of individual pipeline units in
   order to identify and monitor at-risk pipelines.

9. Develop and implement specific performance measures to assess the impact of
   the IM program and its individual components on pipeline safety.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided PHMSA with our draft report on April 13, 2012 and received its
formal response on May 11, 2012. We included PHMSA’s response in its entirety
as an appendix to this report. In its response, PHMSA concurred with seven
recommendations and partially concurred with two. Overall, PHMSA’s response
meets the intent of recommendations 3, 5, and 9, and we consider these
recommendations resolved but open pending completion of the Agency’s planned
actions. For recommendations 1, 2, 4, 6, 7, and 8, PHMSA’s response and planned
actions only partially met or did not meet the intent of our recommendations. We
request that the Agency reconsider its responses and provide additional
information, as detailed below.

For recommendation 1, PHMSA partially concurred, stating that IM-related
factors are already part of its risk algorithm—the Risk Ranking Index Model
(RRIM)—a methodology for prioritizing integrated inspections. While RRIM does
assign risk values based on various factors—including the number of pipeline-
related injuries, fatalities, and enforcement actions—it does not include other
important factors related to IM requirements, such as changes in senior pipeline
operator personnel and how often operators conduct in-line inspections. Therefore,
we request that the Agency include additional IM-specific factors in its RRIM as
part of its planned update later this year and provide us a copy.
                                                                                19


For recommendation 2, PHMSA concurred, stating that all integrated inspections
will be recorded in the Inspection Assistant tool in 2013 and provided a December
2012 target date for connecting the Pipeline Data Mart and the Inspection
Assistant databases. However, these actions are only partially responsive since
they do not address the other data system issues identified in our report, such as
developing the National Pipeline Registry System and improving documentation
requirements and processes for the Inspection Assistant. Therefore, we request that
PHMSA provide us target dates for completing the National Pipeline Registry
System and implementing improvements to the Inspection Assistant.

For recommendation 7, PHMSA concurred but did not fully address the intent of
the recommendation—to develop a strategic program for conducting analytical
studies on a national level. Instead, the Agency reiterated that it continuously
improves its data and analysis capabilities, as exemplified by the recent
deployment of RRIM. PHMSA also stated that its actions in response to other
recommendations in our report are responsive to the “broad concepts” of this
particular recommendation. While these efforts represent positive steps, they do
not address the need for a broader analytical program. In fact, as we note in our
report, PHMSA is currently developing an “analytical agenda” as called for in its
Data Quality and Analysis Improvement Plan. Therefore, we request that PHMSA
provide us with a copy of this agenda once finalized.

Finally, for recommendations 4, 6, and 8, PHMSA concurred or partially
concurred, but stated that completion of its proposed actions would depend on the
approval of its FY 2013 budget request and completion of a rulemaking. However,
recognizing the uncertainty associated with obtaining the requested funding and
completing the rulemaking, we request that the Agency provide us alternative
plans for these recommendations in the absence of the requested funding and/or
completion of the rule.

ACTIONS REQUIRED
PHMSA’s planned actions for recommendations 3, 5, and 9 are responsive and we
consider these recommendations resolved but open pending receipt of
documentary evidence that appropriate corrective actions are complete. However,
with respect to recommendation 5, we request that PHMSA provide a target action
date. Moreover, in accordance with DOT Order 8000.1C, we request that the
Agency provide our office, within 30 days of this report, with additional data and
plans—as well as target action dates—for recommendations 1, 2, 4, 6, 7, and 8.
Accordingly, we consider those recommendations open and unresolved pending
receipt of this information.
                                                                            20


We appreciate the courtesies and cooperation of PHMSA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Darren L. Murphy, Program Director, at (206) 220-6503.

                                      #

cc: Martin Gertel, OST, M-1
    Karen Raschke, PHMSA, PH-4
                                                                                21



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.
We conducted the audit between January 2011 and April 2012 and included such
tests of procedures and records as we considered necessary, including those
providing reasonable assurance of detecting abuse and illegal acts.

To determine that the hazardous liquid accident data used during the audit were
reliable, we performed a data reliability assessment. Our assessment examined
such items as duplicate records, missing data in key fields, and illogical data
relationships. Although we found problems in areas such as inconsistency in
format of latitude and longitude and lack of required information for small
accidents, we found the data to be reliable for the limited purposes of our audit.

To help assess the effectiveness of PHMSA’s oversight of hazardous liquid
pipeline operators’ IM programs, we reviewed planning and policy documents and
inspection reports from a statistical sample of 31 IM-detectable accidents. To
select this sample, we used data from 2005 through 2010 for hazardous liquid
accidents identified as occurring within or could affect a high consequence area
(HCA). Out of a population of 284 such accidents, a sample of 56 and
10 substitute accidents were selected at random. We then calculated the number of
accidents that could be attributed to causes identifiable by IM procedures using
PHMSA’s definition of IM-detectable accident causes. Out of our sample of
56 and 10 substitute accidents, we identified 31 IM-detectable accidents.

To determine the impact of IM programs on significant IM-detectable accidents,
we reviewed planning and policy documents and inspection reports, and
interviewed officials from operators representing the 31 IM-detectable accidents.
We examined accident reports and accident investigations for root causes to
determine whether some element of an IM plan affected or could have affected the
outcome of the accident.

To assess PHMSA’s inspection activities, we interviewed PHMSA headquarters
and regional officials responsible for inspection planning and operations, pipeline
operator IM personnel, and trade association representatives. To determine the
universe of pipeline operators that had not had an IM inspection within the past
5 years (since 2004), we compared PHMSA’s inventory of federally regulated
hazardous liquid operators and associated inspection records.




Exhibit A. Scope and Methodology
                                                                                 22


To assess PHMA’s enforcement activities, we interviewed PHMSA headquarters
and regional personnel. We then reviewed data from PHMSA’s Safety Monitoring
and Reporting Tool database to determine the number of enforcement actions
associated with all hazardous liquid IM inspections from 2005 through 2010. We
analyzed these data to determine the number of each type of enforcement resulting
from those inspections.

To evaluate IM requirements addressing non-line pipe facilities, we interviewed
officials from PHMSA headquarters, regions, and research and development
department; the American Petroleum Institute (API); and pipeline operators. We
then reviewed legislation, API recommended practices, and API facility studies to
determine the extent to which IM requirements apply to non-line pipe facilities. To
determine the impact of accidents at non-line pipe facilities, we reviewed the
11 IM-detectable accidents (from our sample of 31) that occurred at such facilities.

To determine PHMSA’s data management and analysis capabilities, we
interviewed Agency management responsible for data policies, collection, and
application. We also reviewed internal reports and studies on data needs, quality
assessment, and improvement plans. To evaluate the content, control, and quality
of operator data, we analyzed databases of operator-submitted accident and annual
report data for inconsistencies, missing data, and repetitive reporting of identical
data. We also examined PHMSA’s data verification testing logic and interviewed
senior Agency managers and the database manager.




Exhibit A. Scope and Methodology
                                                             23



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

PHMSA
• Headquarters (DC)
  o Associate Administrator of Pipeline Safety
  o Deputy Associate Administrator, Policy & Programs
  o Deputy Associate Administrator, Field Operations
  o National Field Coordinator
  o Senior Policy Advisor
  o Office of Program Development
  o Office of Enforcement
  o Office of State Programs
  o Office of Engineering & Research
• Regional offices
  o Eastern Region (NJ/PA)
  o Western Region (CO)
  o Southwestern Region (TX)

PHSMA State Partner
• California State Fire Marshall, Pipeline Safety Division

Hazardous Liquid Pipeline Operators
• Visited
  o Buckeye Partner L.P. (PA)
  o Enterprise Products (TX)
  o Crimson Pipeline L.P. (CA)
• Contacted
  o Koch Pipeline Company L.P. (KS)
  o Kinder Morgan Energy Partners L.P. (TX)
  o BP Pipelines N.A. (IL)
  o Sunoco Pipeline (PA)
  o Magellan (OK)
  o Shell Pipeline Company (TX)
  o Explorer Pipeline Company (OK)
  o Colonial Pipeline Company (GA)




Exhibit B. Organizations Visited or Contacted
                                                   24


Trade Associations
• Association of Pipe Line Operators (AOPL)
• American Petroleum Institute (API)
• Pipeline Research Council International (PRCI)

Other Stakeholders
• National Transportation Safety Board (NTSB)
• Accufacts Inc.
• Pipeline Safety Trust




Exhibit B. Organizations Visited or Contacted
                                                                                   25



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                           Title

Darren Murphy                                  Program Director

Jerrold Savage                                 Project Manager

Linda Major                                    Auditor-In-Charge

Greggory Bond                                  Senior Analyst

Stephan Smith                                  Senior Transportation Analyst

Curtis Dow                                     Analyst

Michael Dunn                                   Auditor

Henning Thiel                                  Analyst

Petra Swartzlander                             Statistician

Sandra DeLost                                  Information Technology Specialist

Audre Azuolas                                  Writer-Editor




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                                                                                                 26




                                          U.S. Department                                                                    Administrator
                                                                                                                                             1200 New Jersey Avenue, SE
                                          of Transportation                                                                                  Washington, DC 0590

                                          Pipeline and Hazardous                                                             MAY 11 2012
                                          Material Safety
                                          Administration



                                          ACTION MEMORANDUM TO THE ASSISTANT INSPECTOR
                                          GENERAL FOR AVIATION AND SPECIAL PROGRAM AUDITS

                                          From:                                       Cynthia L. Quarterman
                                                                                      x6-4433

                                          Prepared by:                                Jeffrey D. Wiese
                                                                                      Associate Administrator for Pipeline Safety
                                                                                      x6-2036

                                          Subject:                                    ACTION: Comments on OIG Draft Report Regarding PHMSA’s
                                                                                      Hazardous Liquid Pipeline Operators’ Integrity Management Programs


Hazardous Liquid Integrity Management Programs Have Strengthened Pipeline Safety

                                             The Pipeline and Hazardous Materials Safety
                                            Liquid Pipeline Spills w/Environmental
                                             Administration’s (PHMSA) design and implementation
                                                  Consequences (2002-2011)
   180
                                             of the Integrity Management (IM) program for
 Spills with Environmental Consequences




   160                                                                                       Exponential
                                                                                              y = 155.34eregression
                                                                                                          -0.051x
                                                                                             to show long-tem trend
   140                                       hazardous liquid pipelines has been successful at both
   120
   100
                                             improving safety and creating a more safety-oriented
    80                                       mindset among pipeline operators. We appreciate the
                                                   Spills w/environmental consequences
    60
    40
                                             OIG report’s recognition of PHMSA’s significant
                                                   Exponential Trendline 2002-2011

                                                   '+1 Standard dev. from trendline
    20                                       accomplishments within the pipeline inspection and
                                                   '-1 Standard dev. from trendline
     0
      2002 2004  2006         2008 2010 2012
                                             enforcement program. Since the program was adopted,
                  Calendar Year              the number of miles of regulated hazardous liquid
                                                                   Data Sources: PHMSA Incident Data - as of Feb. 3, 2012.
                                             pipelines has increased, but the number of spills with
environmental consequences has consistently decreased. There is little doubt that the more than
40,000 pipeline repairs completed during the IM program in high consequence areas, including
over 7,300 repairs requiring immediate action, contributed significantly to these improved
outcomes.

While PHMSA’s IM Program has achieved considerable progress, we are working to further
improve our programmatic capabilities to provide effective oversight and pipeline safety in
general. To that end, PHMSA has a pending rule to improve the hazardous liquid IM program


Appendix. Agency Comments
                                                                                                                                27


and is working on regulations to vastly improve data collection. a PHMSA also has several
internal initiatives to improve pipeline safety data quality and analysis. While PHMSA has
achieved considerable progress through the IM program with current resources, several key areas
identified both by the Agency, and discussed within the OIG report, would greatly benefit from
the investment of additional resources. PHMSA’s FY13 Budget Request, if enacted, would
support all the areas identified as needing more resources in this review. For example, the
budget requests 120 additional PHMSA inspection and enforcement personnel and additional
funding to increase state inspection and enforcement personnel as well. These increases would
make it possible to address the myriad of new inspection demands, including increased pipeline
construction and new regulatory requirements such as control room management. The budget
also increases personnel and funding to improve PHMSA’s data collection, quality assurance,
integration, and analysis as well as creating a dedicated accident investigation unit. Without
those new resources, many of PHMSA’s planned improvements will be delayed or remain
unimplemented.

PHMSA Continues to Improve Analytical Basis for Inspections with Available Resources

PHMSA implements a risk ranking algorithm to identify and prioritize pipelines for inspection.
This algorithm uses data derived from previous inspections to identify key risk areas of focus.
Updated most recently in 2011, the algorithm is subject to continuous improvement using more
refined data and risk factors as they become available. The most recent version employs a wide
array of information obtained from inspections, accident reports, enforcement actions, and
Geographic Information System (GIS) data about the environment traversed by pipelines.

These data not only enhance the risk ranking algorithm, they also guide inspectors during
inspection planning. Traditionally, PHMSA pipeline inspections have been divided into several
different types based on a predetermined set of regulations, for example, operations and
maintenance, operator qualifications, integrity management, and control room management.
Each new set of regulations generated a different inspection type that was layered upon the
existing types and operators were inspected simply because the operator was due for an
inspection of that type. This approach has led to a recent backlog in IM inspections as resources
have been redirected to fulfill other inspection needs. PHMSA has been moving away from that
layered inspection approach toward risk-based, integrated inspections that include all types of
inspections. With integrated inspections, the same data used in the risk ranking algorithm is
made available to inspectors as they plan the scope of a specific inspection. By using data during
both risk ranking and inspection planning, PHMSA has begun inspecting pipelines with
increased risk factors in areas that correlate to the increased risk, making the best possible use of
limited inspector time and resources.




a
    This rulemaking was initiated, in part, in response to the Marshall, Michigan spill in July 2010. We would note that incident is
     still subject to investigation by PHMSA in conjunction with the NTSB. Until that investigation is complete, it is not
     appropriate to conclude that the incident was IM-detectable as the first paragraph of the OIG Report asserts.


Appendix. Agency Comments
                                                                                                    28


PHMSA is evaluating further improvements to its risk analysis capabilities. For example,
PHMSA is preparing a rulemaking proposing to collect pipeline risk attributes by GIS segment.
The increased precision offered by GIS has the potential to dramatically improve our ability to
focus on specific risks.

Another key input to the risk ranking algorithm is accident reports submitted by pipeline
operators. Through our data quality assurance process, each hazardous liquid accident report is
reviewed by pipeline inspectors to determine if the report is complete and accurate. If not, we
contact the operator to elicit a supplemental report. While this work is beneficial to our ability to
target risk, it has also reduced the time available for conducting inspections. In order to provide
our inspectors with more time to conduct inspections and spend less time doing data analysis,
early in 2012, we established a Data Management Specialist position in each pipeline Region. In
this way, we intend to combine the quantitative analytical skills of the data specialists with the
specific technical expertise of our inspector workforce to further strengthen our focus on both
specific risks and technical prowess.

PHMSA has also been working to increase our inspection and enforcement workforce to the full
extent of resource availability. As a result, PHMSA has approximately 35 percent more
inspection and enforcement personnel on board at the end of calendar year 2011, than at the end
of calendar year 2008, but more are needed. The additional resources requested for FY13 would
help relieve these resource challenges. PHMSA will continue to do everything within its power
to recruit and retain new pipeline safety inspectors. We are in the process of updating our
recruiting plan and preparing a request for direct hire authority in order to fill any new inspector
positions as soon as possible.

RECOMMENDATIONS AND RESPONSE

Recommendation 1: Categorize IM requirements as a high priority within the Agency’s
integrated inspection and enforcement program.
Response: Concur in part. PHMSA’s integrated inspections are risk-based and data driven
using its continually refined risk algorithm. Identified risks are weighted and pipeline systems
are prioritized for inspection. However, the weighting system within the algorithm is more
complex than “high” and “low.” IM-related risks are part of the algorithm and prioritized
according to the data analysis. Risk- related weighting, including IM performance, will be
adjusted to the extent supported, as we gain access to additional data over time. As a result, no
further action is planned on this recommendation at this time.

Recommendation 2: Establish target dates for resolving remaining data system and risk
analysis issues affecting PHMSA’s inspection program.
Response: Concur. PHMSA continually assesses its systems to improve the quality of its data.
During 2013, the majority of PHMSA pipeline safety inspections, including all of the hazardous
liquid IM inspections will be documented in the Inspection Assistant software. PHMSA’s
Pipeline Data Mart software was recently upgraded to improve inspector access to operator-
submitted data, which makes it easier to review and identify data system and quality issues.




Appendix. Agency Comments
                                                                                                   29


With the completion of a data connection between these two software programs, which is
currently scheduled for December 31, 2012, action on this recommendation will be complete.
Recommendation 3: Implement a pilot program to determine whether the IM Field
Implementation Directive provides sufficient onsite field testing of operator’s IM program
implementation.
Response: Concur. The Hazardous Liquid IM Field Implementation directive is being
designed by experienced inspection personnel using their technical expertise and combined
experience in conducting pipeline inspections. Pipelines are somewhat unique as compared to
other modes of transportation in that evidence of a problem is rarely visible through onsite
inspections. Instead, the most constructive activity often involves detailed reviews of records,
documentation, and test results; not direct onsite observation of operations or testing.
Accordingly, the field implementation directive will balance the appropriate amount of onsite
activity with other inspection activity to provide the best possible use of our inspection
resources. This new directive will be used beginning in calendar year 2013. To ensure that the
appropriate balance has been achieved, PHMSA will solicit feedback from inspectors using the
directive during 2013. PHMSA expects to report on the results by March 31, 2014.

Recommendation 4: Expand accident investigation criteria to conduct more Agency onsite
reviews of significant accidents potentially involving IM-detectable causes.

Response: Concur. The PHMSA pipeline failure investigation policy includes five tiers of
investigation, ranging from follow-up on immediate notifications received from the National
Response Center to multi-Region root cause investigations. This policy establishes the criteria
used to determine whether to send inspectors to the failure site to begin an investigation. These
criteria seek to balance the severity of the accident with the availability of PHMSA inspector
resources for onsite investigation. PHMSA requested a total of 150 additional positions as part
of its FY 2013 budget request. That request included resources to establish a new nationwide
accident investigation group comprised of five new investigators. This group would enable
PHMSA to expand its capability to conduct immediate, onsite investigation of accidents.
However, without those additional resources, it is unlikely that PHMSA would be able to expand
its current accident investigation capabilities.
Recommendation 5: Update IM requirements to mandate baseline and recurring assessments
for non-line pipe facilities, given the availability of new assessment technologies and
methodologies.
Response: Concur. Current PHMSA regulations require operators to implement several
elements of IM for non-line pipe at facilities such as pump stations and tank farms. While the
regulations do not require integrity assessments for non-line pipe, operators are required to
identify non-line pipe that could affect a high consequence area, integrate and analyze all
available information about integrity, analyze the consequences of a non-line pipe failure, and
implement measures to prevent and mitigate the consequences of a non-line pipe failure. As
your report notes, technology adequate to address these non-line pipe facilities did not exist at
the time the original IM rule was issued. Since then, technological advancements have occurred




Appendix. Agency Comments
                                                                                                30


that might provide the capability to assess the integrity of these non-line pipe facilities. PHMSA
data analysis indicates that while hazardous liquid accidents have decreased overall, those non-
line pipe facilities, though often far from the public, now account for the majority of all
hazardous liquid accidents. Accordingly, on October 18, 2010, PHMSA published an Advanced
Notice of Proposed Rulemaking (ANPRM), regarding the safety of onshore hazardous liquid
pipelines in docket PHMSA-2010-0229. The ANPRM raises the issue of requiring baseline and
periodic assessments for non-line pipe based on the availability of new assessment technology.
PHMSA plans to proceed by publishing a Notice of Proposed Rulemaking early in calendar year
2013. As conducting rulemaking activities are necessarily lengthy and time consuming
processes, we cannot predict when we will complete a final rule on this subject.
Recommendation 6: Establish additional quality assurance procedures to verify the accuracy of
operator annual reports and accident data.
Response: Concur in Part. In January 2010, PHMSA created a Data Quality and Analysis
Improvement Plan. Since the creation of this plan, PHMSA has implemented many
improvements in its pipeline safety data systems. By December 31, 2012, PHMSA plans to
establish a formal data management plan for annual reports submitted by hazardous liquid
pipeline operators.
With respect to accident data, PHMSA began implementing strong and effective data quality
procedures in 2002. This process requires each of the hazardous liquid accident reports to be
reviewed by an inspector to determine if the report is complete and accurate. Accident data is
updated as investigations proceed and after they are completed. This iterative approach to
collecting and validating accident data ensures the most current data is available to both PHMSA
and the public. Nonetheless, PHMSA has significant staffing and funding needs to make further
improvements. As set forth above, PHMSA’s FY13 Budget Request would provide additional
resources to help achieve these goals.
The following chart shows the number of significant hazardous liquid accidents by cause:




Appendix. Agency Comments
                                                                                                31


Many initial accident reports to PHMSA are submitted as “Under Investigation,” which falls into
the “All Other Causes” category in the table on the previous page. The percentage of accident
reports in this category is usually less than 10%. The numbers of accidents in this category since
2009 will likely decline as accident investigations are completed.
Recommendation 7: Develop and implement a program of systematic analyses to better
assess pipeline risks, identify safety trends, and focus oversight activities.
Response: Concur. PHMSA has a solid track record of continuously improving its data and
analysis and will continue to make the best possible use of available data. PHMSA has
traditionally used a risk-ranking algorithm using all available data plus inspector knowledge to
schedule unit inspections. In 2011, PHMSA deployed the Risk Ranking Index Model (RRIM)
that for the first time used GIS data corresponding to the pipeline units. These advancements are
critical to our transition to integrated inspections. Since the broad concepts set forth in this
recommendation are specifically addressed in response to other recommendations included in
this report, we suggest that this recommendation be closed. Specific actions that will further
enhance PHMSA’s risk-based, data driven approach to pipeline safety oversight can be tracked
under the remaining recommendations.
Recommendation 8: Create a database of pipeline physical characteristics, accidents, and
inspections—including geographic location—of individual pipeline units in order to identify and
monitor at-risk pipelines.
Response: Concur. In recent years, PHMSA has upgraded its GIS software capability to
enable the collection of pipeline risk attributes for individual GIS pipeline segments. In its FY
2013 Budget Request, PHMSA seeks increased funding to continue improving its GIS system.
As recognized in the OIG draft report, receiving pipeline risk attributes at the GIS segment level
would dramatically improve PHMSA’s ability to track risks and focus inspections. PHMSA
requested authority to pursue this initiative in the Administration’s pipeline safety
reauthorization proposal. That provision was enacted in the final bill. As mentioned above,
PHMSA has begun preparing a rulemaking proposing the submittal of pipeline risk attributes by
GIS segment. Creating a database of pipeline risk factors by GIS segment is contingent upon
successfully completing the rulemaking and the availability of sufficient resources. Once these
conditions are met, we can begin using refined GIS segment data. However, if these
requirements are delayed, so will be our implementation.
Recommendation 9: Develop and implement specific performance measures to assess the
impact of the IM program and its individual components on pipeline safety.
Response: Concur. For many years, PHMSA has collected IM performance measures from
operators and made them publicly available. The current website for this data is:
http://primis.phmsa.dot.gov/iim/perfmeasures.htm. This website includes a national view of the
performance data and access to individual operator data. PHMSA has also received a similar
recommendation from the NTSB regarding performance measures for gas transmission IM, but
neither the OIG nor the NTSB has offered alternatives to the current performance measures.
Nonetheless, PHMSA plans to sponsor a data workshop in October 2012 to solicit public input
on meaningful performance measures from all stakeholders. Decisions concerning the




Appendix. Agency Comments
                                                                                              32


modification of performance measures will be made subsequent to that session, but no later than
June 2013.

If you have any questions, please contact Alan Mayberry, Deputy Associate Administrator for
Field Operations at Alan.Mayberry@dot.gov or (202) 366-5124.




Appendix. Agency Comments
